<html>
<title> - HEARING ON THE U.S.S. MONITOR NATIONAL MARINE SANCTUARY</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
        HEARING ON THE U.S.S. MONITOR NATIONAL MARINE SANCTUARY

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                    NOVEMBER 6, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-68

                               __________

           Printed for the use of the Committee on Resources

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
46-953 cc                   WASHINGTON : 1998





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                Christopher Stearns, Democratic Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held Month Day, 1997.....................................     1

Statement of Members:
    Bateman, Hon. Herbert H., a Representative in Congress from 
      the State of Virginia......................................    11
    Jones, Hon. Walter B., a Representative in Congress from the 
      State of North Carolina....................................     5
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     2

Statement of Witnesses:
    Broadwater, John, Manager, The U.S.S. Monitor National Marine 
      Sanctuary..................................................     6
    Fields, Captain Evelyn, Acting Deputy Assistant Administrator 
      of National Ocean Service..................................     2
        Prepared statement of....................................    15


        HEARING ON THE U.S.S. MONITOR NATIONAL MARINE SANCTUARY

                              ----------                              


                       THURSDAY, NOVEMBER 6, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:05 a.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. [presiding] Good morning. Today we're holding a 
hearing on the National Oceanic and Atmospheric 
Administration's report on the long-term conservation and 
management of the U.S.S. Monitor. Congress directed NOAA to 
undertake this report as part of last year's reauthorization of 
the National Marine Sanctuaries Act.
    In the Civil War, the Monitor played a significant role in 
saving the Union from the C.S.S. Virginia and in maintaining 
the Union stranglehold on Southern ports. That battle was 
important not only in the North's war effort, but it was also a 
major turning point in maritime history.
    After that battle, the fate of the wooden sailing ships in 
war and commerce was sealed forever. However, since I just 
purchased a new sailboat earlier this year, I am glad to say 
that the appeal of sailing ships for recreational uses remains 
unchanged.
    [Laughter.]
    Mr. Saxton. The site of the Monitor wreck was located in 
1973 and was designated as the first national marine sanctuary 
in the United States. Unfortunately funding limitations, the 
remoteness and depth of the site, and the unpredictable weather 
off Cape Hatteras have conspired to prevent significant 
protection and research efforts on the wreck. However, NOAA has 
documented significant deterioration of the vessel since 1990. 
I look forward to hearing today NOAA's long-term plan for 
stabilization, recovery and conservation of this important 
maritime treasure.
    Finally, I believe that every effort should be made to 
ensure that all of the Monitor's historically significant 
artifacts are safely recovered and preserved.
    Our panel today consists of Captain Evelyn Fields, acting 
Deputy Assistant Administrator of National Ocean Service, and 
she is accompanied by Miss Stephanie Thornton, Chief, 
Sanctuaries and Reserve Division, Office of Ocean and Coastal 
Resources Management of the National Ocean Service, and Mr. 
John Broadwater, Manager of the U.S.S. Monitor National Marine 
Sanctuary.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, I am pleased that you are conducting this 
oversight hearing on NOAA's long-range comprehensive plan for 
the management of the U.S.S. MONITOR National Marine Sanctuary.
    The U.S.S. MONITOR was a revolutionary weapon. It was 172 
feet in length, and it was assured its place in history when it 
engaged the Confederate ship VIRGINIA in an historic battle of 
ironclad warships on March 9, 1862. While neither vessel was 
seriously damaged, regrettably at midnight on December 30, 
1862, the MONITOR sank in a huge storm off the coast of North 
Carolina. For 111 years, the final resting place of the MONITOR 
remained a mystery.
    This mystery was finally solved in 1973 when the MONITOR 
was discovered in 230 feet of water, 16 miles off the coast of 
Cape Hatteras. Two years later the site was designated as our 
Nation's first National Marine Sanctuary and a one-mile zone 
was established to protect the ship and its historical 
artifacts.
    It is now more than 20 years later and the debate still 
continues on whether it is better to recover the entire vessel, 
remove certain innovative pieces like the turret, conserve and 
display historically significant items, or stabilize the vessel 
on the ocean floor.
    While this lengthy debate has gone on without a solution, 
sadly the words of the MONITOR's paymaster, William Keeler, now 
ring true: ``What the fire of the enemy failed to do, the 
elements have accomplished.''
    I look forward to hearing from Captain Evelyn Fields of the 
National Ocean Service, and I am hopeful that after today we 
will have a much better idea about how our government will 
honor the memo

    Mr. Saxton. Welcome, ladies and gentleman. And Captain 
Fields, the floor is yours.

  STATEMENT OF CAPTAIN EVELYN FIELDS, ACTING DEPUTY ASSISTANT 
            ADMINISTRATOR OF NATIONAL OCEAN SERVICE

    Captain Fields. Thank you.
    Mr. Chairman and members of the Subcommittee, I am Captain 
Evelyn Fields, Acting Deputy Assistant Administrator of the 
National Ocean Service of the National Oceanic and Atmospheric 
Administration.
    It is an honor and a pleasure for me to appear before you 
at today's oversight hearing regarding NOAA's comprehensive 
preservation for the U.S.S. Monitor. The Monitor may well be 
the most significant shipwreck in United States's history. Many 
of her innovations, especially her revolving gun turret, 
brought about a revolution in naval technology.
    Today, however, the Monitor is rapidly losing her sustained 
battle against the ravages of the sea. Lying in 230 feet of 
water, 16 miles off Cape Hatteras, North Carolina, the 
Monitor's hull is suffering rapid deterioration which, if not 
checked, will result in her total disintegration within the 
next few years.
    The Monitor was located by scientists in 1973, and it is 
listed on the National Register of Historic Places and it is a 
national historic landmark. In 1975, Congress designated the 
remains of the Monitor as the first national marine sanctuary 
in recognition of its unique historical and archaeological 
significance.
    During its 22-year stewardship of the Monitor National 
Marine Sanctuary, NOAA has employed some management practices 
and state-of-the-art technology to investigate the wreck. It 
was through NOAA's stewardship activities that the rapid 
deterioration of the Monitor was detected and identified as a 
critical problem.
    NOAA is now facing a critical decisionmaking juncture on 
how to best take action to address the deterioration 
threatening the archaeological integrity of the Monitor. 
Congress has expressed its concern by directing the Secretary 
of Commerce to produce a long-range plan. The Secretary was 
also directed, to the extent feasible, to utilize the resources 
of other Federal and private entities with expertise and 
capabilities that are helpful. The scope and timetable for this 
plan was very ambitious.
    NOAA faced several constraints in developing the plan. We 
had limited resources with which to address the many 
complexities inherent at any comprehensive marine 
archaeological preservation plan. Also NOAA lacks the in-house 
expertise to thoroughly develop all aspects of the plan as 
specified by Congress such as the specialized engineering 
skills required for deep-sea recovery operations.
    However, we were able to overcome some of these constraints 
by working with other Federal agencies and private entities to 
produce a draft comprehensive plan. NOAA believes that this 
plan will provide the framework necessary to select the right 
course of action and to implement it.
    I am pleased to submit with this testimony a copy of the 
draft plan entitled, ``Charting a New Course for the Monitor.'' 
In the plan, the draft plan, NOAA presents a comprehensive 
management strategy that if implemented should ensure that the 
Monitor will be preserved and protected for future generations.
    Major components of the draft plan are a detailed 
description of the Monitor's recent deterioration, a wide-range 
of possible preservation options, evaluations of each option, 
and recommendations for planning. The draft plan concentrates 
on the preservation options. These options address the most 
immediate problem of the Monitor's rapid deterioration. This is 
the most complex and resource-intensive section of the plan.
    The plan reflects the latest data as well as potential 
solutions made viable by recent technological advances. The 
deep water and hostile environment at the sanctuary pose unique 
challenges. In brief, the preservation options range from doing 
nothing and letting nature take its course, to partial and full 
recoveries of the remains. Other options propose encapsulating 
the remains, structurally shoring up the hull or attaching 
cathartic protection to slow down some of the various forces 
contributing to the Monitor's degradation.
    NOAA's draft recommendation is to use a combination of 
these options. We propose to selectively recover the most 
significant artifacts with the gun turret being the most 
ambitious and to shore up the hull to prevent its imminent 
collapse.
    A final decision on which option or options are selected 
for preservation of the Monitor will involve a number of 
considerations. Some of these considerations are the 
technological feasibility, probability of success, review under 
the National Historic Act, section 106 process, and other 
applicable law, consistency with the division's strategic plan 
and the sanctuary management plan and available funding and 
support.
    NOAA has determined that the draft should be peer reviewed 
by outside experts before a final plan is released due to the 
Monitor's extreme historic significance and the importance of 
determining the best option. NOAA will pursue the following 
schedule: This month we plan to put out a notice of 
availability of the draft plan through the Federal Register. 
Later, in the January/February timeframe, we expect that the 
final plan will be submitted to the President's Office of 
Management and Budget for review. And hopefully by late April 
the final plan will be submitted to Congress. This is an 
ambitious schedule, but we believe we can meet it.
    Time is of the essence if the Monitor is to be preserved 
without significant damage to its archaeological integrity. The 
loss of even one summer's work season might well mean the 
collapse of the Monitor's hull.
    The schedule proposed by the draft plan is extremely 
compressed, and several key objectives must be simultaneously 
pursued. NOAA believes that it can meet the following essential 
objectives through NOAA assets and partnerships during the 
fiscal year 1998: Develop and implement a business plan in 
cooperation with one or more non-governmental organizations for 
identifying and raising the necessary funds for recovery and 
conservation. To develop formal plans for stabilization and 
recovery of archaeology and conservation and exhibition. Submit 
the final plans for the National Historic Preservation Act 
section 106 and applicable law review. And initiate on-sight 
archaeological survey mapping and recovery activities required 
by law as a first step in preparing the site for stabilization.
    NOAA will require external assets and/or partnerships 
during fiscal year 1998 and beyond to conduct the most 
extensive, complex, time consuming, and expansive 
archaeological survey efforts. The archaeological diving 
activities must, by law, be supervised by professional 
archaeologists. Other tasks such as photographic documentation 
and mapping might be accomplished by remotely operated vehicles 
also under archaeological supervision.
    NOAA has explored a number of possible solutions to this 
dilemma. One solution is the limited diving assistance of the 
Navy. Both NOAA and Navy procedures governing dive cross 
certification currently hamper combined dive operations. We, at 
NOAA, are working to resolve this issue of cross certification 
of our personnel.
    Another solution would be if the Navy assets such as dive 
teams, ROV's and remote sensing equipment could be utilized at 
no cost to NOAA possibly in the same manner that the Navy's 
research submersible participated in a private archaeological 
survey during 1997 under the direction of oceanographer Robert 
Valley.
    NOAA has also sought and received able assistance from 
other government agencies including within the Department of 
Commerce who might be able to render further support. However, 
most of the support has also been provided on a cost-
reimbursable basis.
    Finally, the private sector has offered to assist on past 
expeditions. NOAA has received extremely useful and skilled 
assistance from such private entities as research institutions, 
private corporations, and the private diving organizations.
    Mr. Chairman, in conclusion, let me say that NOAA 
appreciates this opportunity to report to you on the status of 
the draft comprehensive plan for the preservation of the 
Monitor. And we will keep you and the Committee apprised of the 
plan's progress.
    We look forward to working with you and the Committee to 
help implement the critical recommendations identified by the 
final report.
    At this time, I would like to introduce Mr. John 
Broadwater.
    [The prepared statement of Captain Fields may be found at 
end of hearing.]
    Mr. Saxton. That will be fine, Captain.
    Captain Fields. Sure.
    Mr. Saxton. And we appreciate John Broadwater being here.
    Your testimony was very thorough and very articulate, and 
we appreciate it very much. Before, however, we move to Mr. 
Broadwater, I would like to just ask unanimous consent that Mr. 
Bateman, who is not a member of this panel, be welcomed to sit 
on the panel this morning. And welcome, Mr. Bateman, we really 
appreciate your interest and understand your interest in this 
issue.
    And also, Mr. Jones from North Carolina has two other 
conflicting activities that are going on concurrently with this 
hearing. So I would just like to ask him at this point if he 
has any statement that he would like to make?

STATEMENT OF HON. WALTER B. JONES, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Yes, sir, Mr. Chairman.
    I want to thank you, and I want to apologize to the panel. 
I represent the third district of North Carolina, and Hatteras 
is in my district. And this is--the U.S.S. Monitor is of great 
interest not only to this Nation, but especially to the people 
of eastern North Carolina and the entire State of North 
Carolina. And I was truthfully looking forward to being here 
for the entire presentation. I do apologize for the conflict 
that the Chairman mentioned.
    But I just want to say, Mr. Chairman, I look forward to 
working with you, the Committee, and the Congress to see that 
we do everything that is possible, because this is not only 
naval history, this is such an important part of America's 
history. And so, I just wanted to leave with my comments that I 
look forward to working with you under your leadership and 
working with the Committee to do what we need to do to give 
NOAA the support so that we can see this project finished and 
closure come to this project in the future.
    Thank you.
    Mr. Saxton. Well, Mr. Jones, thank you very much. And we 
certainly look forward to your participation as I know that you 
are very, very interested in this subject. Thank you.
    Captain Fields, if you want to further introduce Mr. 
Broadwater at this point, or however you want to proceed.
    Captain Fields. OK, thank you.
    I'd like to introduce Mr. John Broadwater who is the 
manager of the Monitor National Marine Sanctuary. Mr. 
Broadwater has participated in a number of events since the 
1979 timeframe of events that have occurred with the Monitor--
that NOAA has had with the Monitor. He comes with an 
engineering and archaeological background. He has extensive 
diving experience. And he is going to present some slides and 
other materials that will hopefully help you visualize the 
condition of the Monitor and as well point out some of the 
challenges and opportunities that lie ahead for us.
    Mr. Saxton. Thank you.
    Mr. Broadwater welcome, and we look forward to seeing what 
you have got to show us this morning. We appreciate it very 
much.
    And while you are getting situated, I would like to ask 
unanimous consent that Mr. Young's statement appear in the 
record immediately following the Chairman's.

   STATEMENT OF JOHN BROADWATER, MANAGER, THE U.S.S. MONITOR 
                   NATIONAL MARINE SANCTUARY

    Mr. Broadwater. Thank you, Mr. Chairman.
    It is a pleasure for me to be here, too, and I thought 
possibly a few visuals might help since the Monitor is a very 
unusual wreck site as archaeological sites go that we'd be able 
to give you a better picture of what is going on--if we can get 
a picture at all here.
    Mr. Saxton. We're working on the lights as we speak here.
    Mr. Broadwater. OK, let's see. I'm not sure why--OK bear 
with us for a second. Ah, the countdown begins. There we go. 
Let's see if this is going to do its thing now. Now I think we 
are in business.
    Mr. Saxton. All right.
    Mr. Broadwater. Just very quickly, to orient you.
    [Slides.]
    Mr. Broadwater. The Monitor is a very small sanctuary. It 
is one nautical mile in diameter. It lies 16 miles off Cape 
Hatteras in an area just fringing on the Gulf Stream and about 
16 miles off shore. It's in 230 feet of water which for most of 
the scuba-diving projects that have been done in archaeology 
over the years is quite deep. And I know that the picture on 
the lower right is not very clear, but the Monitor's hull lies 
upside down, and it is very unusual. It's revolving turret that 
made it so famous was dislodged when the ship sank, and the 
whole ship rolled over and landed on the turret. You'll see in 
a couple of the visuals later that the fact that it is lying 
propped up on the turret is one of the problems that is causing 
the stress and the collapse of the hull today.
    I won't go into detail of this, but just put this in to 
show you that this is some of the area just since 1991 that 
we've observed major catastrophic changes in the Monitor's 
hull. Several really key areas have collapsed. Many of those 
are structural and major meaning that by the collapse of those 
elements you can be sure that there will be others coming along 
shortly after. And we literally go out there every year not 
knowing if the Monitor will be collapsed around the turret base 
or whether we'll still have a chance. So we are starting to be 
very concerned which is the reason we are here today.
    This is not a very easy picture to understand. I put it in 
just to let you know that we are applying some of the latest 
technology available. The Navy and some private corporations 
were very helpful last year in getting a new laser line-
scanning device, one of the latest imaging devices, to make a 
pass over the Monitor, which is the lower image. The upper 
image was done in 1974 by the Navy. And by comparing these two 
images, we've been able to quantify some of the collapse of the 
Monitor and actually demonstrate how serious the problem is and 
also help plot some of the things that might be solutions to 
the problem.
    The plan that we've presented to you today tries to review 
all the major options that we thought might be viable under 
these circumstances from a no action option to just let nature 
take its course, as Captain Fields mentioned. However, 
continuing to regulate the access to the sanctuary and conduct 
research all the way through some time of stabilization which 
could be shoring it up with some type of mechanical supports or 
sandbags all the way through some type of limited recovery or 
even total recovery. So we have considered the whole gamut.
    After looking at all the options and talking to a number of 
experts in ocean engineering an archaeology over quite a few 
years, actually, but summarizing it here lately, we think that 
the most likely option for success would be a compromise that 
would include a combination of two of these options. To first 
go in and do some type of stabilization to buy us some time. We 
know that we can do stabilization fairly quickly, and some of 
it can be done at relatively low cost which would help preserve 
parts of the Monitor for additional work later on.
    Then following that, we could identify some of the more 
important parts of the Monitor: its propeller and unique 
engine, and of course, the most unique feature of all, its 
revolving gun turret which could then be recovered.
    Just as a preliminary way of looking at this, and I'll go 
through this very quickly, but I wanted to give you an idea 
that we have progressed far beyond just looking at options. We 
have a preliminary plan that we think is fairly feasible. It is 
in six phases.
    The first being to go in and doing what I'm calling ``pre-
shoring archaeology.'' In order to meet the section 106 
requirements for significant historic sites, we would need to 
go in and do mapping in the areas that are most likely to be 
affected by the stabilization and recovery processes 
themselves. That could be done starting at any time that the 
assets are available.
    Following that, the shoring activity, this is an attempt to 
do sort of a profile through the wreck. You can see that the 
wreck is raised well above the sea bottom, and so there is 
quite a bit of unsupported armored deck with tremendous amount 
of weight bearing down on this hull, and that is what is 
contributing to the catastrophic collapse. So some type of 
shoring activities seem to be the next most logical phase.
    Following that it would be just a continual progression of 
removal of items that are going to collapse eventually anyhow 
and to remove them in such a fashion that we minimize any 
damage to both those components and to the rest of the hull.
    We've already made an attempt with the help of the United 
States Navy to recover the Monitor's propeller. We were 
unsuccessful very much for the same reason that the Monitor 
sank in 1862. The weather didn't cooperate at all. But this 
would be the next phase of actual recovery.
    Once those components were out of the way and the lower 
hull was exposed, removal of the engine could take place. The 
engine and many of the components in the engine compartment are 
very unique features to the Monitor as well.
    That would leave us with one portion of the hull, also 
badly deteriorated, lying over the top of and blocking access 
to the turret. And we initially thought it would be too radical 
to think about actually cutting into these items and removing 
them to get access to the turret. People were trying to come up 
with ways to get the turret out from beneath the hull, but I 
think it has become very obvious to everyone now that these 
areas are the areas where we're seeing the most collapse. And 
entire section of about eight feet of the armor belt that was 
able to withstand point-blank cannon fire in the Civil War has 
completely disintegrated since I have been going out there 
starting in 1992. So it is collapsing anyway. We think it can 
be removed very carefully without damaging the rest of the hull 
or the turret. And so that is the suggestion at this point.
    That brings us to stage five which is the recovery of the 
turret itself. They used to talk about the ``little cheese box 
on a raft'' which was one of the nicknames for the Monitor, but 
this ``little cheese box'' has eight inches of iron plating 
around it. It weighs over 110 tons even without the contents 
which is another 30 tons or so. It is 22 feet in diameter and 9 
feet high. And so it is no small salvage operation in and of 
itself. But in our discussions with salvage experts, certainly 
it is doable especially with a progression like this.
    Then there would be just the final resurvey of the area and 
an attempt to stabilize anything that was left unstable after 
all this activity took place.
    This is a somewhat accelerated and compressed schedule of 
how we might go about it. Rather than really go too much on the 
scheduling, I'd just like to point out the components.
    As you can see, development of a preliminary plan was our 
first step, and that is what we've completed as of today and 
presented. The next thing is to come up with a very detailed 
recovery plan that would include all the equipment and 
procedures and type of skills and assets that are needed to do 
something of that scale. And at the same time, I think most of 
you have been exposed to archaeological projects at some point, 
and the second thing that we always get hit with is the cost of 
preserving those materials that we've recovered. Objects that 
have been in salt water for a long time, especially metallic 
objects, require a lengthy and complicated chemical process of 
preservation. And so, a detailed plan would have to be 
developed for those components at the same time. Preliminary 
estimates that the total cost for those two phases would be in 
the neighborhood of $250,000.
    Then we would get into the rest of the planning, the 
clearance through the section 106 review process for historical 
significance.
    And along with all of this there is, of course, the matter 
of raising the funds for such a project. And NOAA has had 
several volunteer organizations already come forward--non-
profit organizations who are concerned about the Monitor and 
who have offered assistance in trying to help us develop what 
we are calling a business plan in general generic terms for 
coming up with the funding through a variety of possible 
sources. We've had a long-term cooperative agreement with the 
Mariner's Museum in Newport News which is the principle museum 
for the artifacts from the Monitor and the archival material. 
The Mariner's Museum has stepped forward and said that they 
would like to participate fully in this operation and to try 
and possibly be that non-governmental organization that led the 
charge to raise these additional funds for the conservation and 
public exhibit phase. Because, after all, our final reason for 
doing all of this is to preserve parts of the Monitor for 
people to be able to see and a museum like the Mariner's Museum 
or some similar facility certainly is essential to that.
    The little small boxes that I won't try to define for you 
are my way of--shorthand way of trying to define some of the 
many steps of actual on-sight work that would be required both 
to prepare the site for the recovery and to actually conduct 
the recovery. And the recovery of the components is included in 
there, and the preliminary estimates that we were given by the 
Navy--they were developed at no cost to the government by a 
contractor--the estimates are $10 to $12 million for recovery 
and stabilization, and the conservation costs at another $10 
million.
    One of the reasons that conservation costs are so high is 
that there is no existing facility that can handle things the 
size of the Monitor's turret, so that would have to be 
developed. We do have a preliminary plan that I am very pleased 
with. I think it is feasible and is as practical and reasonable 
as anyone could hope for.
    Anyone who has been off the Atlantic--I don't need to even 
tell you that one of our biggest problems is just the very 
conditions that sank the Monitor. They don't call the place the 
``Graveyard of the Atlantic'' for nothing. Conditions out there 
are terrible. It is a deep-water site. The currents are strong 
and unpredictable. We have severe and very unpredictable 
weather. It is pretty far from shore, but worse than that, 
there is not a suitable shore base for heavy equipment and the 
type of equipment that we would need for some of these 
operations that is nearby. So we're dealing with all these.
    These are just some photographs to show the level of 
collapse and deterioration in the Monitor. I won't even try to 
describe. But we're monitoring this, literally monitoring the 
Monitor on an annual basis with the help of a lot of private 
and governmental groups.
    The preliminary estimates for just going in and doing the 
initial archaeology show that we need over 100 dives just to do 
the clearances, and so what we're doing there is trying to work 
a number of different ways, use as many suggestions--and we've 
gotten some very innovative suggestions from the ocean 
engineering community as to how we might combine resources and 
use different types of equipment to get these jobs done.
    One of the first things that anybody thinks of when they 
think of deep-water salvage is of course our own United States 
Navy. They have been famous for their salvage work for years. 
They have well-trained people. They have the latest equipment. 
Some of the disadvantages that we've found in our work with the 
Navy so far is that it is very difficult for the archaeologist 
being on the surface to deal with being an archaeologist 
sitting on the boat while trained Navy divers are down there 
trying to do the work. But they are trained to do diving and 
not archaeology, so we're working out ways to communicate and 
coordinate those activities so that the wreck is not actually 
damaged in the process of trying to preserve it. But the Navy 
has been very cooperative.
    The other thing that has been suggested is that there is a 
whole new world now of remotely operated vehicles, and that we 
may be able to employ the dozen involved putting people in the 
water and putting lives at risk. We have a number of private 
diving groups that have developed some very impressive skills 
and many of these groups have offered assistance to us, and so 
this is another avenue that we're pursuing as partnership 
operations, combined operations with these groups.
    This is just to show you some of the assets that the Navy 
has suggested might could be made available. Their NR1 research 
submersible is specifically allocated for research. Right in 
our own port of Norfolk, the Atlantic Fleet has the grasp and 
the grapple that are two of the finest submarine rescue and 
salvage ships available. Each of these vessels has the 
capability of lifting the Monitor's turret in one single lift. 
So they are very capable ships. And we also have both the CLT 
and Mena Salvage Dive Unit in Norfolk that have offered 
assistance as early as this coming year. We're also in contact 
with the various commercial diving operations and organizations 
who are also very interested and would like to try to help out 
in some way.
    I've been asked, ``Well, has anybody done anything like 
this before?'' Well there have been really famous stories like 
the Vasa which was raised in the Stockholm harbor. It sank in 
1628 and is almost beautifully and perfectly intact. The one 
more of us are probably familiar with is the Mary Rose which 
was raised in 1982 in Portsmouth, England.
    Unfortunately, there have been some terrible failures. The 
Karo was another Civil War vessel that with all the best of 
intentions was almost totally destroyed for lack of proper 
planning and equipment being available. And recently, a lot of 
you probably followed the attempt to recover a portion of the 
Titanic last year which was raised within a few hundred feet of 
the surface. Everything broke loose. Everything went awry and 
the thing plummeted over two miles back to the bottom of the 
sea bed. We're trying to make sure that we don't repeat the bad 
mistakes.
    Very quickly, just a picture of some of the equipment that 
was required to raise a part of the Mary Rose's hull. That was 
wooden ship that sank in 1545. It took this much equipment. So 
we're not talking about small, easy to do projects here with 
the Monitor.
    So that gives you an idea of how far things have progressed 
and where we are headed with some of this thinking. We're not 
through yet, though. As we mentioned, one of the things that we 
desperately want to do is get as much input, as many ideas as 
possible. We're going to a very select panel of peer review 
people who have expertise in all of these different areas, and 
I think they will be able to assist us as we move to the next 
phase.
    So thank you very much, and I'd be happy to answer any 
questions that there might be on the technology of the thing.
    Mr. Saxton. Well, Mr. Broadwater, thank you very much for a 
very interesting presentation.
    I would like to call on the gentleman from Virginia at this 
point for any comments or questions he may have.

   STATEMENT OF HON. HERBERT H. BATEMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Bateman. Thank you, Mr. Chairman.
    If I can be indulged, there is a great deal of nostalgia 
associated with being back in this room with you where the old 
Merchant Marine and Fisheries Committee used to meet. And I 
would have to say with some tinge of regret, but for the action 
of the House and the Rules Committee in 1995, I probably would 
be sitting where you are sitting as chairman of that Merchant 
Marine and Fisheries Committee if it still existed.
    Having said that, I want to commend you, Mr. Chairman, for 
holding this hearing today and for allowing me to sit with the 
Subcommittee.
    The Monitor is of obvious major historical significance of 
both its specific role in saving the Union fleet in Hampton 
Roads and its broader role in creating the era of ironclad 
naval warfare. In fact, if it had not come into existence and 
had not survived the conflict with the Confederate ship of the 
C.S.S. Virginia, I think it is fairly well to predict that the 
entire outcome of the Civil War might have been much different 
than it was. So it deserves protection for those reasons.
    The Mariner's Museum where the sanctuary office is located 
is in the congressional district that I represent and in fact, 
is only a few blocks from my home. My district also includes 
the northern shore of Hampton Roads where the C.S.S. Virginia 
and the monitor had that famous battle.
    NOAA also should want to protect it and preserve imported 
artifacts from it since it is the Nation's first national 
marine sanctuary. Unfortunately has spent its limited resources 
expanding the sanctuary system rather than taking care of the 
important aspects already under its control. I hope that the 
draft study on which I commend John Broadwater very highly 
shows a change in those attitudes toward the importance of the 
Monitor sanctuary.
    The study is well thought out and clearly a great deal of 
time and effort have gone into it. The preferred alternative to 
recover and restore certain key artifacts and shore up the 
remaining structural elements of the wreck strikes an 
appropriate balance between preserving the site as a resting 
place of United States sailors who died in wartime and keeping 
alive the public memory and knowledge of the importance of the 
Monitor in American and in maritime history. The Federal 
Government allowed the C.S.S. Virginia to be destroyed for the 
price of its salvage value. I hope that in the intervening 
century we have learned to protect our historic resources 
better than that.
    I wish NOAA well in its efforts to resolve the daunting 
technical and budget obstacles that lie before them, and I 
stand ready to cooperate in solving those problems.
    Thank you, Mr. Chairman. And if I might, let me welcome 
you, John. It is nice to have you here and you made a very fine 
presentation.
    Mr. Broadwater. Thank you, sir. It is good to see you.
    Mr. Bateman. You mentioned that there had been some very 
noticeable deterioration in the condition of the Monitor since 
it was first discovered in 1974 and the latest observations. Is 
that something that is incremental or is it accelerating?
    Mr. Broadwater. We believe that it is accelerating. We have 
a difference because no one seems to be able to really get a 
handle on it. There are so many factors involved, but--the best 
analogy that I've been able to draw to deal with it in my own 
mind is that it is sort of like an old barn that used to stand 
near where I grew up and it always kind of leaned to one side, 
but it always still seemed solid and kids played in there, and 
our parents didn't want us there. And then one day the barn 
fell over. And why did it fall?
    I think that what we've got here is a ship that has been 
deteriorating from natural causes for over a century. It is 
supported above the bottom with this situation with the turret. 
So so much of it is actually hanging above the bottom and these 
tremendous forces of all this armored deck is working on it. 
And I think that it has just reached the point of deterioration 
now where it can no longer support these forces and 
catastrophic collapse is the inevitable result. So it is very 
definitely accelerating. We never know what part will fall off 
next.
    Mr. Bateman. So it makes it imperative that we proceed as 
expeditiously as our technology permits?
    Mr. Broadwater. Yes, sir. In my own job, I've tried to be 
very careful in even going to my line office and saying that we 
have a crisis here. But we've got so much evidence now that I 
can't call it anything else. I think that it is very, very 
serious.
    Mr. Bateman. And the longer the wait, the higher the risk?
    Mr. Broadwater. Yes, sir.
    Mr. Bateman. Mr. Chairman, I believe that is the extent of 
what I need to enquire of, and I wish you well as you go 
forward to see that the Monitor is preserved and taken care of 
in the best possible manner.
    Mr. Saxton. Mr. Bateman, thank you very much.
    Mr. Farr?
    Mr. Farr. Thank you very much, Mr. Chairman. And welcome to 
this Committee. I represent the modern-day national marine 
sanctuary. And from sanctuary to sanctuary, east to west, 
welcome.
    I'm curious--you know, the entire sanctuary budgets for the 
entire Nation is $12 million. How--here you are sanctuary 
manager having to deal with limited funds and the project that 
you've proposed here really has a horrific bottom line. Is 
there other--I guess in the priority of things, I think that it 
is more important right now that our sanctuaries protect our 
natural resources. Last week in this very room we were talking 
about how we're having entire fisheries be destroyed and 
habitats be destroyed, and I guess it's a question of 
priorities. How do you as a sanctuary manager suggest that we 
as people that have to make these tough decisions as which of 
our ``children'' we're going to invest in and the others that 
we're not, how do you suggest that we do this? Maybe is the 
salvage operation with a commercial bent feasible? Almost a 
bounty? You know, wouldn't it be easier to maybe put out a sum 
of money, a reward and allow the private sector to go out and 
do the salvage operations?
    Mr. Broadwater. I understand what you are saying exactly, 
and certainly one of the frustrations of the program is seeing 
so many of the needs and trying to fit that into our budget. 
Something like what you are suggesting is one of the things on 
the list to look into. But as far as the question itself, I 
defer to----
    Captain Fields. Well I would just like to say that in 
looking at the problem with the Monitor, one of the things that 
has to happen is to do the proper archaeological work because 
of the preservation Act, since it is a historic monument. So 
you cannot necessarily just allow a salvager to go out without 
being able to address the preservation issues and the issues of 
making sure that you've got the proper archaeological 
information taken care of.
    Mr. Farr. But if you only--I mean we have a limited budget. 
One thing is Congress in their cut, squeeze and trim attitude 
is that they would just ignore this. That is one of the 
options, to do nothing.
    Captain Fields. Yes, I suppose so. I suppose that is one of 
the options, but you know, again, we're supposed to follow the 
statutes and we are obligated to take a look at it from the 
historical preservation as it is a historic landmark.
    Mr. Farr. And the other--I don't disagree with you, but you 
have budget limitations in doing that, right?
    Captain Fields. Yes, you do.
    Mr. Farr. And I think that what you've presented here is 
that if we could do it all properly it is going to cost us 
about $20 million?
    Captain Fields. Yes, that's true. And that is one of the 
reasons why we are looking at it from a standpoint of what is 
the best balance between all of the options available. And 
we're trying very hard to make sure that we take and objective 
and a balanced look at preservation----
    Mr. Saxton. Would the gentleman yield for just one 
question. Will the gentleman yield?
    Captain----
    Captain Fields. Yes.
    Mr. Saxton. I'm told by staff that you are looking at, or 
that there is a likelihood that there will be some private 
contributions made that will assist in this effort. Can you 
speak to that issue?
    Captain Fields. Well, we are working with a number of 
private companies--not companies but private areas to try and 
buildupon some resources in order to address the issues. We 
have--we obviously work with the Mariner's Museum, and there 
will be hopefully several or at least one foundation that might 
be interested and has expressed interest in helping us raise 
the funds in order to do some of the work that is necessary.
    Do you want to add anything?
    Mr. Broadwater. The only thing that I would--rather than 
touch on the actual policy side of things, if I could just get 
sort of the managerial point of view for more of a technical 
aspect. Being an archaeological but having enough background in 
engineering to really appreciate both sides of the problem, I 
have talked to commercial salvers about ideas. In fact several 
commercial salvage firms have come forward with ideas, and 
quite a few of these salvage firms have an archaeological 
interest and quite a sympathy for protecting the resource. And 
the one thing that we found that all of us agreed on is that 
the importance of the Monitor is plain and simply its 
archaeological and historical significance. So anything that we 
did to further accelerate its destruction would be of no 
benefit to a salver or to the government. So if there were some 
way to work together so that the material that we're trying to 
preserve could be brought up in a commercial, government 
partnership there may be several really wonderful options there 
that we just haven't quite been able to come up with yet.
    Mr. Farr. Well that's essentially the bent that I'm on. I 
think that we are with the sanctuaries--in the reauthorization 
of the sanctuaries, we put in the ability for you to market in 
logos and products essentially that are consistent with the 
sanctuaries. And the fees for those sales can be kept with the 
sanctuary. It seems to me that you've got a commercial 
opportunity here.
    And then we ought to think boldly. I mean in our national 
parks, we give out concessionaires. We're bringing the private 
sector in more than we think, and we've never essentially 
looked at the sanctuaries and being able to in a sense 
commercialize in that sense. But I think that we ought to think 
of ways that we could do that. Not in conflict with our purpose 
which is essentially, as we advertise, that the sanctuaries are 
sort of the national parks of the oceans. And I'm convinced 
perhaps even our lifetime that we're going to figure out ways 
to get people into the ocean through vehicles. I think we're 
going to have rent-a-cars in the sea some day. And we ought to 
be thinking about that technology and how we're going to be 
able to take advantage of it.
    So whether you put bounties on this stuff, or whether you 
think of a concessionaire or come up with another way--I think 
that this Committee would be challenged because what we're 
trying to do is in an era of limited budgets is think of new 
ways in which we can have our public/private partnership that 
will in the end--enhance--what we've envisioned in creating 
sanctuaries.
    Mr. Saxton. Thank you, Mr. Farr and Mr. Bateman. And 
Captain Fields and Mr. Broadwater and Ms. Thorton thank you for 
being with us. We appreciate it very much. You certainly have a 
challenge on your hands, and we share that challenge with you. 
Thank you for being here.
    The Committee is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
      Statement of Captain Evelyn Fields, Acting Deputy Assistant 
Administrator, National Ocean Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee:
    I am Captain Evelyn Fields, Acting Deputy Assistant 
Administrator of the National Ocean Service of the National 
Oceanic and Atmospheric Administration (NOAA). It is an honor 
and a pleasure for me to appear before you at today's oversight 
hearing regarding the comprehensive preservation plan for the 
management, stabilization, preservation and recovery of 
artifacts and materials of the USS Monitor. NOAA is honored to 
have been given the responsibility for the long-term 
stewardship of this most famous vessel.
    The Monitor may well be the most significant shipwreck in 
U.S. history. Many of her innovations, especially her revolving 
gun turret, brought about an international revolution in naval 
technology still evident in modern warships. Today, however, 
the Monitor is rapidly losing her sustained battle against the 
ravages of the sea. Lying in 230 feet of water, 16 miles off 
Cape Hatteras, North Carolina, the Monitor's hull is suffering 
devastating deterioration which, if not checked, will result in 
her total disintegration within the next few years.
    Located by scientists in 1973, the Monitor is listed on the 
National Register of Historic Places and is a National Historic 
Landmark. In 1975, in recognition of the Monitor's unique 
historical and archaeological significance, Congress designated 
the remains of the Monitor as the first National Marine 
Sanctuary. In its 22-year stewardship of the Monitor National 
Marine Sanctuary, NOAA has employed sound management practices 
and state-of-the-art technology to investigate the wreck. 
Through NOAA's efforts, public interest and understanding of 
the Monitor has been enhanced and the need for continued 
preservation of this unique resource has been emphasized. 
However, despite NOAA's stewardship, research, and observation 
activities over that time, rapid deterioration of the Monitor 
is taking place and NOAA is now facing a critical decision-
making period which will determine whether the archaeological 
integrity of the Monitor suffers irreversible damage.

The Challenge: The Rapid Disintegration of the Monitor

    Recent on-site research conducted by NOAA and private 
researchers has determined that the collapse of the Monitor's 
hull is imminent. Photographic evidence clearly shows that 
there has been a marked increase in the rate of hull 
deterioration during the past five years. Accelerated 
deterioration apparently results from several factors: 
continual exposure to a high-current, saltwater environment; 
corrosion and electrochemical action; shipworms; and even human 
causes. There is a general consensus that the Monitor's hull 
has reached a critical state of decomposition beyond which 
catastrophic collapse could occur at any time.

NOAA's Response to the Challenge

    In 1992, responding to the alarming degradation of the 
Monitor's hull, NOAA delayed issuance of a newly-revised 
management plan for the Sanctuary in order to conduct further 
site assessment. NOAA's Sanctuaries and Reserves Division (SRD) 
commenced a broad range of initiatives including: several 
diving and remote-sensing expeditions to the Sanctuary; a 
cooperative effort with the U.S. Navy to help stabilize the 
Monitor's hull; and, development of a revised plan for 
preservation and management.
    In 1993 and 1995, NOAA conducted major engineering and 
archaeological expeditions to the Sanctuary in conjunction with 
further archival research and several small-scale site 
operations. Private research divers have also assisted NOAA in 
this data-gathering. This research concluded that a concerted, 
well-planned effort would be required to preserve the remains 
of the Monitor, and that time was of the essence.
    Due to the national importance of the Monitor and limited 
NOAA resources, SRD developed partnerships with several private 
and other governmental organizations, including the U.S. Navy, 
NOAA's National Undersea Research Program (NURP), The Mariners 
Museum in Newport News, VA, Raytheon Corporation, Northrop 
Grumman Oceanic Systems, Key West Diver, Inc. and others.

Congressional Mandate for a Comprehensive Preservation Plan

    In 1996, Congress formally expressed its concern regarding 
the rapid deterioration of the Monitor's hull. As part of its 
1996 reauthorization of the National Marine Sanctuaries Act, 
Congress directed the Secretary of Commerce to produce ``a 
long-range, comprehensive plan for the management, 
stabilization, preservation, and recovery of artifacts and 
materials of the U.S.S. MONITOR.'' (Section 4 of Public Law 
104-283). The Secretary was also directed that ``to the extent 
feasible utilize the resources of other Federal and private 
entities with expertise and capabilities that are helpful.'' 
The scope and timetable for this plan was very ambitious.
    Despite not receiving additional resources with which to 
address the many complexities inherent in any comprehensive 
marine archaeological preservation plan, and while recognizing 
that NOAA lacks the in-house expertise to thoroughly develop 
all aspects of the plan as specified by Congress, such as the 
specialized engineering skills required for deep sea recovery 
operations, NOAA has overcome those limitations by working with 
other Federal agencies and private entities to produce a draft 
plan which NOAA believes will provide the framework necessary 
to face and resolve the crisis.

Overview of the Comprehensive Preservation Plan

    I am pleased to submit with this testimony a copy of the 
draft plan, entitled, ``Charting a New Course for the 
Monitor.'' Accompanying the draft plan is a compendium of 
supplementary data including ocean engineering, conservation, 
previous NOAA research, history and other relevant topics. In 
the draft plan, NOAA presents a comprehensive management 
strategy that, if implemented, should ensure that the Monitor 
will be preserved and protected for future generations.
    This draft comprehensive plan reflects the latest data from 
the Sanctuary as well as potential solutions made viable by 
recent technological advances. The deep water and hostile 
environment at the Sanctuary pose unique challenges for 
protection, management and research. The draft comprehensive 
plan develops a framework for protection, identifies a range of 
viable options for the stabilization and preservation of the 
Monitor, and evaluates those options, based upon the best 
available historical, archaeological and engineering 
information.
    Major components of the draft plan include: a detailed 
description of the Monitor's hull and recent deterioration; a 
wide range of possible preservation options; evaluations of 
each option; and recommendations for future planning and 
preservation. The plan necessarily concentrates on the 
preservation options as they address the most immediate 
decision to arrest the Monitor's rapid deterioration, as well 
as being the most complex and resource intensive section of the 
plan. The preservation options described and reviewed in the 
plan are:

        1. Non-Intervention--no preservation action is undertaken and 
        nature is allowed to take its course;
        2. In Situ Preservation by Encapsulation--the Monitor is buried 
        to significantly reduce deterioration;
        3. In Situ Preservation by Shoring--sections of the hull in 
        greatest danger of imminent collapse are given structure 
        support;
        4. In Situ Preservation by Cathodic Protection--technology used 
        to protect vessels today from the sea's corrosive action is 
        used to somewhat slow the Monitor's deterioration;
        5. Selective Recovery of Artifacts and Hull Components--
        artifacts and major hull components of significance that can be 
        recovered with reasonable efforts and are threatened with 
        disintegration are recovered;
        6. Selective Recovery Followed by Encapsulation--a combination 
        of above options;
        7. Selective Recovery Combined With Shoring--another 
        combination of above options; and
        8. Full Recovery--the Monitor is recovered in toto.
    A final decision on which option or options are selected 
for preservation of the Monitor will involve considerations of 
technological feasibility, probability of, success, review 
under the National Historic Preservation Act section 106 
process and other applicable law, consistency with the 
Division's Strategic Plan and Sanctuary Management Plan, and 
available funding and support. NOAA is confident that this 
preliminary plan contains the necessary information for 
decision-making and for moving to the next phase of planning 
and preservation.

Next Steps in Completing the Plan

    NOAA has determined that the draft should be peer reviewed 
by outside experts before a final plan is released because of 
the Monitor's extreme historic significance and the importance 
of determining the best option for preserving the ship's 
remains. The draft plan will be distributed for review to a 
select group of marine archaeologists and engineers. Their 
comments will be carefully reviewed and, if necessary, the 
draft plan will be revised to incorporate appropriate comments 
and suggestions. NOAA will pursue the following schedule for 
submittal of the final plan:

        <bullet> November 15, 1997: A notice of availability of draft 
        plan will be submitted for publication in the Federal Register 
        for a 45-day public comment period;
        <bullet> January 30, 1998: The Final Plan will be submitted to 
        the President's Office of Management and Budget for review; 
        and,
        <bullet> April 30, 1998 (Target date): The Final Monitor 
        Comprehensive Preservation Plan will be submitted to Congress.

Critical Steps in Implementing the Plan

    Time is of the essence if the Monitor is to be preserved 
without significant damage to its archaeological integrity. The 
loss of even one summer work season might well mean the 
collapse of the Monitor's hull. The schedule proposed by the 
draft plan is extremely compressed and can only be met if 
several key objectives are met simultaneously. It is important 
to note that several essential objectives require assets that 
are currently beyond NOAA's capabilities, as described below.
    1. Essential objectives that can be met through NOAA assets 
and partnerships during FY 98 (Completion of these objectives 
are pending passage of the FY 98 funding appropriation.):

        <bullet> A ``business plan'' must be developed and implemented 
        early in FY 98, in cooperation with one or more non-
        governmental organizations, for identifying and raising the 
        necessary funds for recovery and conservation;
        <bullet> Formal plans for stabilization/recovery, archaeology, 
        conservation and exhibition must be developed in FY 98;
        <bullet> The final plans must be submitted for review under 
        National Historic Preservation Act section 106 and other 
        applicable law in FY 98;
        <bullet> On-site archaeological survey, mapping and recovery 
        must be initiated during FY 98 as a first step in preparing the 
        site for stabilization and recovery activities.
    2. Essential objectives that require additional assets and/
or partnerships during FY 98 and beyond:

        <bullet> Mandatory on-site archaeological survey and artifact 
        recovery activities must, by law, precede engineering and 
        stabilization efforts; they will require exceedingly time-
        consuming and expensive efforts due to the extreme depth and 
        adverse weather conditions. These archaeological activities 
        could be accomplished by diving teams that included persons 
        relatively unskilled in archaeology, so long as they were 
        constantly supervised by professional archaeologists; other 
        tasks, such as photographic documentation and mapping, might be 
        accomplished by remotely-operated vehicles (ROVs), also under 
        archaeological supervision. Several possible solutions to this 
        dilemma exist, but all are currently stalled or seriously 
        hampered:
        <bullet> The U.S. Navy has offered limited assistance on a 
        variety of important tasks, but in most cases on a reimbursable 
        basis; even if the costs are at a reduced rate, they exceed the 
        limited funds available to NOAA. It would be extremely helpful 
        if Navy assets such as dive teams, ROVs and remote- sensing 
        equipment, could be utilized for the Monitor at no cost to 
        NOAA, possibly in the same manner that the Navy's research 
        submersible NR-1 participated in a private archaeological 
        survey during 1997 under the direction of oceanographer Robert 
        Ballard.
        <bullet> The U.S. Navy has also offered limited diving 
        assistance, but both NOAA and Navy procedures governing dive 
        certification hamper combined dive operations. NOAA is working 
        to resolve this issue through cross-certification of personnel.
        <bullet> The U.S. Navy also has access to equipment that might 
        assist in reducing the need for placing divers on the site, 
        including some of the state-of-the-art ROVs and submersibles 
        that might be able to accomplish some archaeological and 
        engineering tasks as well as survey and mapping.
        <bullet> NOAA has also sought and received able assistance from 
        other governmental agencies, including those within the 
        Department of Commerce, who might be able to render further 
        support, including the National Undersea Research Program, NOAA 
        Corps Operations, the U.S. Army Reserve and the Smithsonian 
        Institution; however, most of that support has also been 
        provided on a cost-reimbursable basis.
        <bullet> The private sector has also offered to assist. On past 
        expeditions, NOAA has received extremely useful and skilled 
        assistance from such private entities as research institutions, 
        including the Harbor Branch Oceanographic Institution and The 
        Mariners' Museum; private corporations, including Newport News 
        Shipbuilding, Northrop Grumman Oceanic Systems, Raytheon 
        Corporation, Reynolds Metals Corporation, and the Westinghouse 
        Corporation; and private diving organizations including Farb 
        Monitor Expeditions and The Cambrian Foundation. The latter two 
        groups have requested to organize joint research dive 
        expeditions with NOAA to the Monitor.

Conclusion

    Mr. Chairman, in conclusion let me say that NOAA 
appreciates this opportunity to report to you on the status of 
the draft comprehensive plan for preservation of the Monitor 
and will keep you and the Committee apprised of the plan's 
progress. We look forward to working with you and the Committee 
to help implement the critical recommendations identified by 
the final report.

</pre></body></html>
